No. _________

IN THE SUPREME COURT OF THE UNITED STATES
444444444444444444444444U
GILBERT CARRASCO,
Petitioner,
-vUNITED STATES OF AMERICA,
Respondent.
4444444444444444444444444U

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
4444444444444444444444444U

PETITION FOR WRIT OF CERTIORARI
4444444444444444444444444U

TODD W. BURNS
Counsel of Record
Burns & Cohan, Attorneys at Law
1350 Columbia Street, Suite 600
San Diego, California 92101
619-236-0244
todd@burnsandcohan.com
Counsel for Petitioner

QUESTION PRESENTED FOR REVIEW
In United States v. Martinez-Fuerte, 428 U.S. 543 (1976), this Court held that the special
need of immigration enforcement made it constitutionally permissible for Border Patrol agents to
make suspicion-less stops of vehicles at internal checkpoints, for the limited purpose of conducting
brief immigration inspections. In recent testimony by top-level officials, the Border Patrol
acknowledged that it is now using its checkpoints to carry out its broad mission of searching for
contraband, weapons, and undocumented immigrants. That is more than the Court approved in
Martinez-Fuerte, and akin to the general law enforcement checkpoints the Court found
unconstitutional in City of Indianapolis v. Edmond, 531 U.S. 32 (2000). Nonetheless, the circuit
courts where these internal checkpoints are used – the Fifth, Ninth, and Tenth – continue to uphold
their constitutionality.
The question presented is whether the Border Patrol’s admitted use of internal immigration
checkpoints to carry out its broad mission of intercepting contraband, weapons, and undocumented
immigrants violates the Fourth Amendment’s command that “[t]he right of the people to be secure
in their persons, houses, papers, and effects, against unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but upon probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched, and the persons or things to be seized.”

i

STATEMENT OF RELATED CASES
United States v. Gilbert Carrasco, 3:17-cr-3938-JLS, United States District Court for the
Southern District of California. District court proceeding in which the issue that is the subject of this
petition was litigated. Judgment was entered on November 20, 2018.
United States v. Gilbert Carrasco, No. 18-50417, United States Court of Appeals for the
Ninth Circuit. Direct appeal deciding issue raised in this petition. Judgment was entered on May
13, 2020.

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ORDER AND OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RELEVANT CONSTITUTIONAL PROVISION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

District Court Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II.

Ninth Circuit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

REASONS FOR GRANTING THE PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX
Portion of Transcript of 5/21/18 Hearing in United States v. Carrasco,
S.D. Cal. Case No. 3:17-cr-3938-JLS
United States v. Carrasco, __ Fed. App’x __, 2020 WL 2466378 (9th Cir. 2020)
Portion of Transcript of 3/9/18 Hearing in United States v. Becerra-Perez,
S.D. Cal. Case No. 17-cr-0478-JLS

iii

TABLE OF AUTHORITIES
Page
FEDERAL CASES
City of Indianapolis v. Edmond,
531 U.S. 32 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Illinois v. Lidster,
540 U.S. 419 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Adair,
732 F.2d 1394 (9th Cir. 1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Carrasco,
__ Fed. App’x __, 2020 WL 2466378 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . 2, 6, 8, 10, 11
United States v. Forbes,
528 F.3d 1273 (10th Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Martinez-Fuerte,
428 U.S. 543 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Messer,
655 Fed. App’x 956 (4th Cir. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Sanchez,
710 F.3d 724(7th Cir. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Soto-Camacho,
58 F.3d 408 (9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Soyland,
3 F.3d 1312 (9th Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Summer,
153 F. Supp. 3d 1261 (S.D. Cal. 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Tello,
924 F.3d 782 (5th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

iv

CONSTITUTIONAL PROVISIONS
Fourth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FEDERAL STATUTES
21 U.S.C. §841 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. §1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SUPREME COURT RULES
Rule 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

v

INTRODUCTION
Forty-four years ago, in United States v. Martinez-Fuerte, 428 U.S. 543 (1976), this Court
held that the special need of immigration enforcement made it constitutionally permissible for
Border Patrol agents to make suspicion-less stops of vehicles at internal checkpoints, for the limited
purpose of conducting brief immigration inspections. In recent testimony by top-level officials, the
Border Patrol acknowledged that it is now using its checkpoints to carry out its broad mission of
searching for contraband, weapons, and undocumented immigrants. That is more than the Court
approved in Martinez-Fuerte, and akin to the general law enforcement checkpoints the Court found
unconstitutional in City of Indianapolis v. Edmond, 531 U.S. 32 (2000). Nonetheless, the circuit
courts where these internal checkpoints are used – the Fifth, Ninth, and Tenth – continue to uphold
their constitutionality. Because this is an entrenched issue of exceptional importance, the Court
should grant review and either hold that the checkpoints are being operated in an unconstitutional
manner, or provide a reasoned opinion explaining the bases for, and limits on, its conclusion to the
contrary.
ORDER AND OPINION BELOW
On May 21, 2018, the district court denied Gilbert Carrasco’s motion to suppress the fruits
of his seizure at an interior Border Patrol checkpoint. See 5/21/18 Reporter’s Transcript (RT) in
United States v. Carrasco, S.D. Cal. Case No. 3:17-cr-3938-JLS, at 82 (attached in appendix).
Following a jury trial, Carrasco was convicted of one count of possessing methamphetamine with
intent to distribute, see 21 U.S.C. §841(a)(1), and he was subsequently sentenced to 120 months
custody.

On May 13, 2020, the Ninth Circuit filed an unpublished opinion affirming the district
court’s denial of Carrasco’s suppression motion. See United States v. Carrasco, __ Fed. App’x __,
2020 WL 2466378, *1 (9th Cir. 2020) (attached in appendix).
JURISDICTION
The Ninth Circuit’s opinion was filed on May 13, 2020, and Carrasco did not seek rehearing.
This Petition is timely and the Court has jurisdiction under 28 U.S.C. §1254(1).
RELEVANT CONSTITUTIONAL PROVISION
The Fourth Amendment to the United States Constitution states, “The right of the people to
be secure in their persons, houses, papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the persons or things to be
seized.”
STATEMENT OF THE CASE
I.

District Court Proceedings
On October 24, 2017, Border Patrol Agent Luis Lozano was working with his drug and

human detecting dog at the California Highway 111 Border Patrol checkpoint, which is 52 miles
north of the U.S.-Mexico border. See ER 48, 179.1 At 3:40 p.m., Agent Lozano’s dog, Amon, was
sniffing cars that were in line at the checkpoint, and he alerted to the driver’s side of a Saturn Ion.
See ER 183-84. Amon continued to sniff the car when it got to the “primary [inspection] officer,”
and again alerted to the driver’s side. See ER 185. Agent Lozano had the primary officer send the

1

The ER cites in this petition are to the Excerpts of Record submitted in the Ninth Circuit,
at docket #15 in case number 18-50417.
2

car to the checkpoint’s secondary inspection area, and Agent Lozano followed the car there. See ER
185.
In secondary inspection, the driver consented to a search of the interior of the car, and he and
the two male passengers – one of whom was Petitioner Gilbert Carrasco – were told to get out of the
car and sit on a bench nearby. See ER 186. Amon then jumped into the car and alerted repeatedly
to the front passenger’s seat. See ER 187. Agent Lozano immediately walked over to Carrasco, who
had been sitting in that seat, and asked if he had narcotics on him or had used narcotics recently. See
ER 187-88. Carrasco responded yes, and, in response to additional questions said he had
methamphetamine taped to his legs. See ER 188. Agent Lozano patted down Carrasco, felt
packages under his pants, and then had another agent escort Carrasco inside the checkpoint trailer.
See ER 188. There agents uncovered two packages containing approximately two pounds of
methamphetamine. See ER 189-90, 196, 269D-E.
Carrasco moved to suppress the fruits of his initial seizure at the checkpoint because the
Border Patrol is unconstitutionally using that checkpoint, and all of its internal checkpoints, for
general law enforcement purposes. See ER 10-24. Specifically, contrary to City of Indianapolis v.
Edmond, 531 U.S. 32, 40 (2000), the Border Patrol is using the checkpoints to carry out its overall
mission of interdicting contraband, weapons, and undocumented immigrants, rather than for the
limited special need of immigration enforcement approved in United States v. Martinez–Fuerte, 428
U.S. 543 (1976).
In Martinez-Fuerte, the Court addressed the constitutionality of a Border Patrol checkpoint
and held that immigration enforcement is a permissible purpose for stopping vehicles and posing
questions without individualized suspicion. 428 U.S. at 556-64. The Court rejected the defendant’s
Fourth Amendment challenge to the checkpoint, concluding that “a traffic-checking program in the
3

interior is necessary because the flow of illegal aliens cannot be controlled effectively at the border.”
Id. at 556. The Court also “stressed the impracticality of the particularized study of a given car to
discern whether it was transporting illegal aliens, as well as the relatively modest degree of intrusion
entailed by the stops.” Edmond, 531 U.S. at 38 (citing Martinez–Fuerte, 428 U.S. at 556-64).
The Court reached the opposite conclusion in Edmond, which “involved a checkpoint at
which police stopped vehicles to look for evidence of drug crimes committed by occupants of those
vehicles. After stopping a vehicle at the checkpoint, police would examine (from outside of the
vehicle) the vehicle’s interior; they would walk a drug-sniffing dog around the exterior; and, if they
found sufficient evidence of drug (or other) crimes, they would arrest the vehicle’s occupants.”
Illinois v. Lidster, 540 U.S. 419, 423 (2004) (citing Edmond, 531 U.S. at 35). The Court “found that
police had set up this checkpoint primarily for general ‘crime control’ purposes, i.e., ‘to detect
evidence of ordinary criminal wrongdoing,’” and held that was unconstitutional. Id. at 41; see also
id. at 34, 38 (stating that checkpoint aimed at “discovery and interdiction of illegal narcotics” has
the “primary purpose [of] detect[ing] evidence of ordinary criminal wrongdoing”).
In Carrasco’s case, to support its argument that the primary purpose of the Border Patrol’s
internal checkpoints is limited to immigration enforcement, the government relied on: (1) written
testimony by Border Patrol Chief Mark Morgan at a September 13, 2016 hearing before the House
Subcommittee on Border and Maritime Security, titled, “Moving the Line of Scrimmage: Reexamining the Defense in Depth Strategy,” ER 51-57; and (2) the November 27, 2017 testimony of
Assistant Chief Border Patrol Agent Ryan Yamasaki at a hearing held in United States v. BecerraPerez, S.D. Cal. Case No. 17-cr-0478-JLS (found at docket #58) (hereafter “11/27/17 Yamasaki

4

Testimony”).2 That testimony actually shows that the internal checkpoints are an integral part of the
Border Patrol’s strategy for achieving its broad mission of interdicting contraband, weapons, and
undocumented immigrants, which is akin to the general law enforcement purpose that is prohibited
by this Court’s holding in Edmond.
Chief Morgan and Agent Yamasaki are, of course, well aware of Martinez-Fuerte and the
limited authority it gives the Border Patrol to use checkpoints for immigration enforcement. Indeed,
Agent Yamasaki acknowledged that members of the Border Patrol – from the highest echelon to
field agents – are trained about that limited authority, informed to stay on script when discussing the
purpose of the checkpoints in public, and given laminated reference cards setting out that script. See
11/27/17 Yamasaki Testimony at 22, 24, 30, 32, 67, 69-70. And at points in their testimony, Chief
Morgan and Agent Yamasaki briefly parroted the claim that the “primary purpose” of the Border
Patrol checkpoints is to conduct immigration inspections. See ER 44, 54, 56-57; 11/27/17 Yamasaki
Testimony at 20.
The substance of Chief Morgan’s and Agent Yamasaki’s testimony, however, tells a different
story. Their testimony shows the checkpoints are an integral part of the Border Patrol’s overall
strategy for interdicting contraband, weapons, and undocumented immigrants. To begin with, both
men testified that the Border Patrol’s “mission” – per its own mission statement – “is to secure the
United States’ borders between the ports of entry. That includes preventing the illegal entry of
persons and contraband . . . .” ER 43; see also ER 27, 51; 11/27/17 Yamasaki Testimony at 10, 65,
123. They also testified that in seeking to accomplish that mission, the Border Patrol uses a “layered
enforcement strategy,” which “has been referred to as ‘defense in-depth.’” ER 51-52; 11/27/17

2

In Becerra-Lopez, the same district court judge addressed the same issue presented here
two months prior, and in that case heard the testimony of Agent Yamasaki.
5

Yamasaki Testimony at 10, 123. The first of those layers is made up of agents and resources
deployed at the borderline to prevent the illegal entry of contraband, weapons, and undocumented
immigrants. See ER 52; 11/27/17 Yamasaki Testimony at 10. But, as Chief Morgan testified, the
Border Patrol has concluded “that the security of the border cannot be achieved by only enforcement
activities located at the physical border . . . . For that reason, some of USBP’s enforcement
operations take place away from the physical border, at interior checkpoints, and in ancillary areas.”
ER 52. Or, as Chief Morgan stated in his related oral testimony to Congress, “things are still getting
across the border,” thus the Border Patrol has implemented its “defense in-depth” strategy to prevent
a “single point of failure,” that “single point” being the entire borderline. See 9/13/16 Morgan Oral
Testimony at 15:15, 16:45, 32:40, 53:30;3 see also 11/27/17 Yamasaki Testimony at 10-11, 65, 123.
Thus, the second layer of the Border Patrol’s defense in-depth strategy is comprised of
interior checkpoints and roving patrols many miles from the border. As Agent Yamasaki testified,
checkpoints “maximize” the Border Patrol’s ability to secure the border against contraband,
weapons, and undocumented migrants.4 See 11/27/17 Yamasaki Testimony at 14, 80. Similarly,
throughout his testimony Chief Morgan emphasized that interior checkpoints are used to carry out
the Border Patrol’s overall mission, not just for immigration enforcement. For example, he stated:
As part of the USBP’s layered security strategy, checkpoints greatly enhance our
ability to carry out the mission of securing the Nation’s borders against terrorists and
smugglers of weapons, contraband, and unauthorized entrants. Checkpoint

3

The oral testimony was given by Chief Morgan on September 13, 2016, in addition to the
written testimony at ER 51-57.
The oral testimony can be found at
www.c-span.org/video/?415164-1/hearing-examines-border-security-effectiveness. The Ninth
Circuit took judicial notice of Chief Morgan’s oral testimony. See Carrasco, 2020 WL 2466378,
*1 n.1.
4

Indeed, when checkpoints are not operating the Border Patrol relies more heavily on its
roving patrols. See 11/27/17 Yamasaki Testimony at 14.
6

operations are critical security measures that ensure that the border is not our only
line of defense, but rather one of many.
ER 52 (emphasis added). Moments later, Chief Morgan discussed the use of dogs at the interior
checkpoints:
USBP also uses canine teams to detect undocumented individuals and illegal drugs
by conducting a quick exterior canine sniff at an immigration checkpoint while the
roadblock inspection is ongoing. An alert by a Border Patrol canine constitutes
probable cause to search. USBP canine teams are specially trained to detect the odors
of controlled substances and concealed humans at checkpoints and other Border
Patrol operations. As part of CBP’s layered enforcement strategy, canine teams
provide an unmatched level of security and detection capability.
ER 54. In the same vein, Chief Morgan said checkpoints are “an efficient and effective security
mechanism used to interdict criminal activity” of all sorts, explaining:
The presence of USBP agents along strategic routes reduces the ability of criminals
and potential terrorists to easily travel away from the border. Given that fewer
resources (law enforcement personnel, equipment, and technology) are required to
operate a checkpoint, checkpoint operations are an efficient and effective security
mechanism used to interdict criminal activity and restrict the ability of criminal
organizations to exploit roadways and routes of egress away from the border. In FY
2015, at checkpoints alone, USBP apprehended 8,503 individuals and seized over
75,000 pounds of drugs, while intercepting thousands of dangerous attempts at
human and drug smuggling. Many of the drugs seizures at checkpoints are a
reflection of the effectiveness of USBP’s multi-layered strategy. The shipments
seized at checkpoints are often referred to as ‘consolidation loads,’ meaning that they
are not shipments being moved directly from the border into the interior, but rather
they are a combination of several small cross-border shipments that had previously
entered the United States, and are now being moved to major distribution points in
the interior of the country.
ER 54-55.
Chief Morgan’s and Agent Yamasaki’s testimony makes clear that the purpose of the
checkpoints is not merely to conduct immigration inspections, it is to carry out the Border Patrol’s
broad law enforcement mission of interdicting contraband, weapons, and undocumented immigrants.
This is further supported by the fact that the checkpoints are equipped with narcotic detecting dogs

7

and scales for weighing drug seizures, as well as radiation detecting devices for detecting weapons.
See 11/27/17 Yamasaki Testimony at 26, 98, 128-29, 137-38. At the very least, it is indisputable that
the checkpoints have the dual primary purposes of interdicting drugs and undocumented immigrants,
because the Border Patrol’s website says so. Specifically, under the heading “Traffic Checkpoints”
– not “Immigration Checkpoints” – the Border Patrol website says, “Traffic checks are conducted
on major highways leading away from the border to (1) detect and apprehend illegal aliens
attempting to travel further into the interior of the United States after evading detection at the border
and (2) to detect illegal narcotics.” See www.cbp.gov/border-security/along-us-borders/overview.5
Furthermore, statistics show that the checkpoints are achieving the Border Patrol’s purpose
of interdicting drugs. Over half the arrests made at the Highway 94 checkpoint involved in BecerraPerez are for drugs, and a third of the arrests made at the Highway 111 checkpoint involved in this
case are for drugs.6 See ER 19, 23-24; 3/9/18 RT at 3 (found at docket #69 in S.D. Cal. Case No.
17-cr-0478-JLS) (attached in appendix). And when asked during his Congressional testimony
whether there was a distinction between the checkpoints’ effectiveness in interdicting undocumented
immigrants versus drugs, Chief Morgan said there was not, that the checkpoints were “very
successful” for interdicting drugs, and that the checkpoints were also effective for catching criminals
with outstanding warrants. See 9/13/16 Morgan Oral Testimony at 25:12, 26:03, 27:05.

5

The Ninth Circuit took judicial notice of the quoted statement from the Border Patrol’s
website. See Carrasco, 2020 WL 2466378, *1 n.1.
6

Consistent with these numbers, in 2009 checkpoints accounted for over one-third of Border
Patrol drug seizures. See 11/27/17 Yamasaki Testimony at 121. Notably, the Border Patrol touts
its drug seizure statistics on signs posted at the checkpoints, which is evidently intended to deter drug
smuggling, and thus further demonstrates the checkpoints’ general law enforcement purpose. See
ER 13; 11/27/17 Yamasaki Testimony at 155-56.
8

Finally, the facts in Carrasco’s case are consistent with the conclusion that the Border Patrol
is using the checkpoints to interdict drugs. On October 24, 2017, Agent Lozano and his dog, Amon,
were stationed in the “preprimary” area, where he spends the majority of his time at the checkpoint.
See ER 72. There they scanned cars for drug odors before the cars even got to the agent who posed
immigration questions. See id. When Amon alerted to the Saturn Ion in preprimary and primary,
Agent Lozano told the primary officer to send the car to secondary inspection. See ER 74-75. At
that point, Agent Lozano had no basis to believe his dog had alerted to anything other than drugs,
because there was no indication that Amon was aware how many people were in the car, thus he
could not possibly indicate that there was a concealed human inside.7 See United States v. Summer,
153 F. Supp. 3d 1261, 1269 (S.D. Cal. 2015) (citing undisputed expert testimony that “it is not
possible to train a dog to alert to concealed human smell but ignore or differentiate other human
smell in the same vehicle”). And after the car’s occupants were removed and Amon homed-in on
the passenger’s seat, Agent Lozano immediately went to Carrasco and asked if he was holding or had
used drugs, again evidencing a focus on drug interdiction, not immigration enforcement. Indeed, at
that point Agent Lozano had not made any inquiry about Carrasco’s immigration status. See ER 8081, 103.
Despite the wealth of evidence discussed above, the district court denied the motion to
suppress. The court adopted its ruling in United States v. Becerra-Perez, S.D. Cal. Case No. 17-cr0478-JLS, in which the same judge addressed the same issue two months prior. See ER 58-59, 6263, 139. Specifically, the court in Carrasco’s case said, “[t]here’s really no reason for this court to
change its ruling,” and “the [Highway] 111 checkpoint,” like the Highway 94 checkpoint at issue in

7

Consistent with this common sense observation, Agent Lozano testified that Amon had
never found concealed humans in a vehicle while working in the preprimary area. See ER 99.
9

Becerra-Perez, is “constitutional as set up.” 5/21/18 RT at 82, in United States v. Carrasco, S.D.
Cal. Case No. 3:17-cr-3938-JLS (attached in appendix). In light of this, it is appropriate to consider
what the district court said about the checkpoint challenge in Becerra-Perez, when it provided more
reasoning for its holding.
At a March 9, 2018 hearing in that case, the court said its analysis focused on “whether the
primary purpose of the checkpoint was to advance the general interest in crime control.” See 3/9/18
RT at 3, in S.D. Cal. Case No. 17-cr-0478-JLS (attached in appendix).8 The court noted that the
defendants in that case had “pointed to the fact that the number of immigration-related arrests at the
[Highway 94] checkpoint over the last four years [was] less than half of the total arrests. Defendants
also point[ed] to various Border Patrol agency documents indicating that, after the events of
September 11, 2011, the priority mission of the Border Patrol became the prevention of terrorist and
terrorist weapons from entering the United States.” Id. With respect to the fact that immigration
arrests make up less than half of the arrests at the Highway 94 checkpoint, the court found that was
irrelevant because “a checkpoint must be analyzed at the level of its design, and not the relative
numbers of arrests, in evaluating its primary purpose.” Id. at 4. The court also stated that
“[a]lthough the broader mission of the U.S. Border Patrol may include the detection and
apprehension of terrorists and their weapons, in addition to the traditional mission of preventing
illegal aliens and contraband smugglers from entering the United States, all of the evidence before
the court suggests that the internal checkpoint component of the overall Border Patrol mission is
focused upon deterrence of illegal immigration.” Id. The court then denied the motion, concluding

8

The government filed a notice of lodging for this transcript in Carrasco’s case, but failed
to attach the transcript to its notice. Because of that lapse, Carrasco moved for the Ninth Circuit to
take judicial notice of the transcript, and it did. See Carrasco, 2020 WL 2466378, *1 n.1.
10

by stating that the “primary purpose of the 94 checkpoint is the deterrence of illegal immigration,
and not to advance the general interest in crime control.” Id. at 6. That conclusion was erroneous
in Becerra-Lopez and in Carrasco’s case, as the evidence the government submitted to the district
court shows that the Border Patrol uses the interior checkpoints to carry out its overall mission of
interdicting drugs, weapons, and undocumented immigrants.
II.

Ninth Circuit Opinion
On appeal, the Ninth Circuit affirmed the district court, and in doing so applied a clear error

standard of review. The entirety of that court’s reasoning is as follows:
Here, the district court reviewed extensive testimony and agency documents that
consistently emphasized that the primary purpose of the Highway 111 Border Patrol
checkpoint was “to restrict the routes of egress from the border area and thereby
create deterrence to the initial illegal entry.” Although the agency may have had
other goals in addition to its central mission of interdicting undocumented
immigrants, we cannot conclude that the district court clearly erred in determining
that the primary purpose of the Highway 111 checkpoint was to intercept
undocumented immigrants, rather than to advance a general interest in crime control.
United States v. Carrasco, __ Fed. App’x __, 2020 WL 2466378, *1 (9th Cir. 2020)(emphasis
added). Use of the clear error standard was unsupported, because all of the evidence was undisputed,
indeed it all came from Border Patrol sources. The district court was therefore presented with the
purely legal question of whether the checkpoints are being operated in an unconstitutional manner.
REASONS FOR GRANTING THE PETITION
As discussed above, the evidence shows the Border Patrol is using checkpoints to carry out
its overall mission of interdicting contraband, weapons, and undocumented immigrants. That is not
the limited immigration enforcement purpose approved by this Court in Martinez-Fuerte. And, in
light of the evidence, it makes no sense to say that the checkpoints are being used to meet a limited,
“special need[], beyond the normal need for law enforcement,” Edmond, 531 U.S. at 37, unless the

11

Border Patrol’s broad law enforcement mission is defined as a limited “special need.” That
conclusion would stretch the meaning of the quoted words beyond their breaking point, and thus
would be contrary to this Court’s case law.
Nonetheless, the district court found that “all of the evidence before the court suggests that
the internal checkpoint component of the overall Border Patrol mission is focused upon deterrence
of illegal immigration.” 3/9/18 RT at 4 (found at docket #68 in S.D. Cal. Case No. 17-cr-0478-JLS)
(attached in appendix). That conclusion is contrary to the admissions of Chief Morgan and Agent
Yamasaki that the checkpoints are being used as a second line of defense after the border, to interdict
contraband, weapons, and undocumented immigrants. It seems the district court relied on the Border
Patrol’s rehearsed mantra as to the checkpoints’ primary purpose, rather than considering the
substance of Chief Morgan’s and Agent Yamasaki’s testimony. That, of course, was error. See
Edmond, 531 U.S. at 46 (stating that a court must “examine the available evidence to determine the
primary purpose of the checkpoint program”).
With respect to the telling fact that there are more drug than immigration arrests at the
Highway 94 checkpoint, the district court found that was irrelevant because “a checkpoint must be
analyzed at the level of its design, and not the relative numbers of arrests, in evaluating its primary
purpose.” 3/9/18 RT at 4 (found at docket #68 in S.D. Cal. Case No. 17-cr-0478-JLS) (in appendix).
But the statistics strongly support the conclusion that at least a primary purpose of the checkpoints
is to interdict drugs, which, of course, Chief Morgan and Agent Yamasaki repeatedly stated in their
testimony. And in United States v. Soto-Camacho, 58 F.3d 408, 412 (9th Cir. 1995), the Ninth
Circuit recognized that an important fact supporting its conclusion that a Border Patrol checkpoint
was not being used in an unconstitutionally pretextual manner was the “statistics which show[ed]
that illegal alien seizures are substantially greater than those related to drugs.” Here, Border Patrol
12

leadership admits that drug interdiction is a key goal of the checkpoints, and the statistics bear that
out.
Notably, the alarm was sounded on this issue in the Ninth Circuit almost thirty years ago, in
United States v. Soyland, 3 F.3d 1312 (9th Cir. 1993). There, the defendants and their car were
searched at a Border Patrol checkpoint and agents found drugs. See id. at 1314. The majority in that
case declined to address “the issue of whether checkpoint officers routinely overstep their authority
by conducting pretextual narcotics searches,” because it had not been argued in the district court or
on appeal. See id. Judge Kozinski dissented, however, expressing concern that Border Patrol
checkpoints were being used to violate restrictions on suspicionless searches. See id. at 1315-20
(Kozinski, J., dissenting). While recognizing that Martinez–Fuerte approved checkpoints for
immigration control purposes, Judge Kozinski warned that “[t]here’s reason to suspect the agents
working these checkpoints are looking for more than illegal aliens. If this is true, it subverts the
rationale of Martinez-Fuerte and turns a legitimate administrative search into a massive violation
of the Fourth Amendment.” Id. at 1316 (emphasis added). He recommended remanding the case
for a factual inquiry into “whether the policies, programs, directives and incentives put in place by
the government, or any customs and practices that have developed with the government’s tacit
approval, have turned . . . [the Border Patrol checkpoints] into general law enforcement
checkpoints.” Id. at 1319 (emphasis added).
Here, the testimony of Chief Morgan and Agent Yamasaki makes clear that the Border Patrol
“agents working these checkpoints are looking for more than illegal aliens.” Per the Border Patrol’s
defense in-depth strategy, they are looking for contraband, weapons, and undocumented immigrants.
And in that effort, drugs are a particular focus. Indeed, as discussed above, the Border Patrol website
states that the purpose of its checkpoints is “to (1) detect and apprehend illegal aliens attempting to
13

travel further into the interior of the United States after evading detection at the border and (2) to
detect illegal narcotics.” See www.cbp.gov/border-security/along-us-borders/overview. Thus, the
Border Patrol admits that drug interdiction is at least one of two primary purposes for the
checkpoints.9 And Edmond makes clear that checkpoints may not be used for a primary purpose of
drug interdiction. 531 U.S. at 41.
It is evident that the Border Patrol is using checkpoints in a manner, and for a purpose, far
beyond what this Court approved in Martinez-Fuerte, and contrary to its holding in Edmond.
Despite this, and Judge Kozinski’s statement of the obvious in Soyland, the Ninth Circuit, and the
other two circuits where Border Patrol checkpoints are predominantly used, have allowed this
massive constitutional violation to continue unabated for years. See, e.g., United States v. Tello, 924
F.3d 782, 787 (5th Cir. 2019) (stating that Border Patrol agents may use checkpoints to search for
drugs and weapons); United States v. Forbes, 528 F.3d 1273, 1277-78 (10th Cir. 2008) (stating that
“border patrol agents [at checkpoints] have virtually unlimited discretion to refer cars to the
secondary inspections area” and to use dogs to search for drugs) (citation and quotation omitted).
Furthermore, the Ninth Circuit’s use of “clear error” review in this case gave unwarranted deference
to the district court’s ruling. The relevant facts were undisputed – indeed, all of the evidence was
submitted by the government, and came from Border Patrol sources. It was thus a dodge of the
constitutional issue for the Ninth Circuit to apply clear error review. It instead should have

9

See, e.g., United States v. Adair, 732 F.2d 1394, 1409 (9th Cir. 1983) (holding that
“convert[ing Native Americans] to an agricultural way of life” and “guarant[eeing their] hunting and
gathering lifestyle” both “qualified as primary purposes of” a treaty, even though those are
conflicting purposes); see also United States v. Messer, 655 Fed. App’x 956, 959 (4th Cir. 2016)
(holding that a “premises can have more than one primary purpose”) (unpublished opinion); United
States v. Sanchez, 710 F.3d 724, 729 (7th Cir. 2013) (holding that “a premises can have more than
one principal use,” and “the proper inquiry is whether the drug transactions were a second primary
use of the premises”).
14

examined, de novo, whether the undisputed evidence established that the Border Patrol is operating
the internal checkpoints in an unconstitutional manner. That is exactly the approach this Court took
in Edmond, 531 U.S. at 40-47, and Martinez-Fuerte, 428 U.S. at 60-64. And here, if the Court
applies de novo review to the undisputed facts, it is apparent that the Border Patrol checkpoints run
afoul of the holdings in Martinez-Fuerte and Edmond.
Because of this conflict, and because this is an issue of exceptional importance, review
should be granted. See S. Ct. R. 10(c). Furthermore, the issue presented is mature and entrenched,
because the circuits where the Border Patrol checkpoints are located have repeatedly upheld their
constitutionality, and shown no penchant for revisiting the issue. A reckoning on this issue is,
therefore, long overdue. Accordingly, the Court should grant this petition and either (1) hold that
the checkpoints are being operated in an unconstitutional manner, or (2) provide a reasoned opinion
explaining the bases for, and limits on, its conclusion to the contrary.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
/s/ Todd W. Burns
Date: July 21, 2020

TODD W. BURNS
Counsel of Record
Burns & Cohan, Attorneys at Law
1350 Columbia Street, Suite 600
San Diego, California 92101-5008
(619) 236-0244
todd@burnsandcohan.com
Counsel for Petitioner

15

